No. __________
IN THE

Supreme Court of the United States
___________________
TRAVIS RAY NORWOOD,
Petitioner,
v.
WEST VIRGINIA,
Respondent.
___________________
On Petition for Writ of Certiorari to the
Supreme Court of Appeals of
West Virginia
___________________
APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI
___________________
WEST VIRGINIA UNIVERSITY
COLLEGE OF LAW
U.S. SUPREME COURT
LITIGATION CLINIC
101 Law Center Drive
Morgantown, WV 26056

LAWRENCE D. ROSENBERG
Counsel of Record
JONES DAY
51 Louisiana Avenue, N.W.
Washington, D.C. 20001-2113
(202) 879-3939
ldrosenberg@jonesday.com

Counsel for Petitioner Travis Ray Norwood

To the Honorable John G. Roberts, Jr., Chief Justice of the Supreme Court of
the United States and Circuit Justice for the Fourth Circuit, in which West Virginia
is located:
1.

Under Supreme Court Rules 13.5, 22, and 30, petitioner Travis Ray

Norwood, through counsel, respectfully requests a 58-day extension of time, up to
and including Friday, January 31, 2020, to file a petition for a writ of certiorari to
the Supreme Court of Appeals of West Virginia to review West Virginia v. Norwood,
No. 17-0978. The West Virginia Supreme Court denied Mr. Moss’s petition for
rehearing or rehearing en banc on September 5, 2019. App.B. The jurisdiction of
this Court will be invoked under 28 U.S.C. § 1257. The time to file a petition for a
writ of certiorari will otherwise expire on December 4, 2019. The application is
timely because it has been filed on or before 10 days before the date on which the
petition is otherwise due.
2.

The decision of the West Virginia Supreme Court presents important

and recurring equal protection and due process questions about whether a criminal
defendant convicted of a crime involving drugs of one class can be given a harsher
sentence than another similarly situated criminal defendant convicted of a crime
involving drugs of another class, despite the legislature’s directive that the two
classes of drugs be treated identically for punitive purposes. Here, Mr. Norwood
was convicted of a drug crime involving heroin, while a similarly situated criminal
defendant was given a more lenient sentence for the exact same crime and in
materially identical circumstances, where the crime involved an opioid,

notwithstanding the West Virginia legislature’s directive that heroin and opioids be
treated the same for punitive purposes. Compare App. A with State v. Lane, 241 W.
Va. 532, 826 S.E.2d 657 (2019); see App. A, Opinion of Workman, J., concurring in
part and dissenting in part, at 7 (“t]he only difference between the charge in Lane
and the charge in the case at bar is that Lane involved the drug Oxycodone and,
here, it was heroin”). The lower federal and state courts are deeply divided as to
whether and under what circumstances such differential treatment is
constitutionally permissible. Compare, e.g., App. A (West Virginia Supreme Court
permitting such differential treatment); State v. Ellison, 255 So.3d 568 (La. 2018)
(Johnson, C.J., dissenting) (criticizing majority for treating abusers of prescription
opioids differently from heroin abusers); U.S. v. Lewis, 521 Fed. Appx. 109, 110 (4th
Cir. 2013) (rejecting challenge that differential treatment of defendants convicted of
crimes involving opioids and defendants convicted of crimes involving heroin is
“arbitrary, excessive, and causes unjust disparities”) with, e.g., People v. Berry, 489
N.E.2d 1107 (Ill. Ct. App. 1986) (affirming identical sentences for both convictions of
delivery of cocaine and delivery of heroin, despite the drugs’ different classifications,
because the legislature had intended similar treatment); U.S. v. Castillo, 460 F.3d
337, 345 (2nd Cir. 2006) (upholding disparity of crack and powder cocaine guideline
ranges because they were specifically intended by Congress).
3.

Good cause exists for this motion. Undersigned counsel, Lawrence D.

Rosenberg of Jones Day, directs the West Virginia University College of Law’s
Supreme Court Litigation Clinic, which is co-counsel in this case. Both the Mr.

2

Rosenberg and the Clinic were recently retained in this matter. They require
sufficient time to research the issues presented and to present an effective petition
for a writ of certiorari.
4.

Furthermore, the Clinic strives to have its students participate fully in

its cases. However, the Clinic is currently engaged in other matters and the Fall
term is almost over. Mr. Rosenberg and the Clinic are preparing a petition for a
writ of certiorari in Moss v. Atkinson, which is due on November 26, 2019. Mr.
Rosenberg and the Clinic were appointed by the United States Court of Appeals in
Haze v. Harrison, No. 18-7340 (4th Cir.), in which the opening brief was filed on
November 12, 2019. And Mr. Rosenberg and the Clinic were appointed by the U.S.
District Court for the Northern District of West Virginia in Wilkerson v. Warden,
Williamsburg Federal Correctional Institution, No. 1:18CV211, to brief and argue a
habeas jurisdictional issue, and expect significant work in the next several weeks
that will follow therefrom. Moreover, the Clinic students have their Thanksgiving
break from November 25 to 29, 2019 and will have final examinations and their
winter break from December 9, 2019 until January 13, 2020. In light of the
academic calendar and the Clinic’s other obligations, the requested extension is
necessary to allow the students sufficient time to participate fully in this case.
5.

Mr. Rosenberg himself also has had recently, and will have in the

coming weeks, significant professional and personal commitments that would make
it extremely difficult to complete the petition without an extension. Mr. Rosenberg
is lead counsel in Citigroup Inc., et al. v. Villar, No. 2:19-cv-05310-GW (C.D. Cal.),

3

in which he had a hearing in Los Angeles, California on November 12, 2019, and
has upcoming hearings scheduled for November 25, 2019 and January 9, 2020. Mr.
Rosenberg is also lead counsel in Lufthansa Technik v. Panasonic Avionics Corp.,
No. 2:17-cv-01453-JCC (W.D. Wash.), and In re the Matter of Lufthansa Technik,
No. 8-19-mc-016-UA-KES (C.D. Cal.), in which he is coordinating simultaneous
document discovery from several parties and multiple depositions, and in which he
had a hearing on November 20, 2019, and has an upcoming hearing on December 3,
2019 in Santa Ana, California, has a brief due on November 22, 2019, and will likely
have several depositions in December 2019 and early January 2020. Mr. Rosenberg
also serves as lead counsel in numerous actions before the U.S. Court of Federal
Claims, including Owl Creek Asia I, L.P. v. United States, et al., No. 18-281C;
Appaloosa Investment Limited Partnership I, et al., v. United States, No. 18-370C;
Akanthos Opportunity Master Fund, L.P., v. United States, No. 18-369C; CSS, LLC,
v. United States, No. 18-371C; Mason Capital L.P., et al., v. United States, No. 18529C; and CRS Master Fund, L.P., et al. v. United States, No. 18-1155C, in which he
argued in opposition to the government’s motion to dismiss on November 19, 2019,
and expects further briefing in the next several weeks. Mr. Rosenberg also will be
out of town traveling on business and/or personal matters on December 5-6, 2019,
December 22, 2019-January 1, 2020, and January 16-20, 2020.
WHEREFORE, Mr. Norwood respectfully requests that an order be entered
extending the time to file a petition for a writ of certiorari for 58 days, up to and
including January 31, 2020.

4

November 22, 2019

Respectfully submitted,

~;; ~tr

LAWRENCED.RosENBERG

Counsel of Record

Jo ESDAY

51 Louisiana Avenue, N.W.
Washington, DC 20001-2113
(202) 879-7622
ldrosenberg@jonesday .corn
WEST VIRGINIA UNIVERSITY
COLLEGE OF LAW
U.S. SUPREME COURT
LITIGATION CLINIC

101 Law Center Drive
Morgantown, WV 26056

Counsel for Petitioner

5

